     UNITED STATES INTERNATIONAL TRADE COMMISSION

                               WASHiNGTON, DC 20436

November 14,2006                                                             IG-DD-031



MEMORANDUM




FROM:

SUBJECT:      Inspector General's Independent Audit Report of the U.S. International
              Trade Commission's Financial Statements for Fiscal Years 2006 and 2005
              and the Commission's Management Challenges
              Audit Report Number: OIG-AR-01-07

I am pleased to provide you with the attached audit report, which presents an unqualified
opinion on the U.S. International Trade Commission's financial statements for fiscal
years (FY) ended 2006 and 2005. We engaged the independent public accounting firm of
O'Connor & Drew, P.C. to perform the audits. the contract required that the audits be
done in accordance with Government Auditing Standards and OMB Bulletin 06-03, Audit
Requirements for Federal Financial Statements.

Additionally, as reported in our October 2005 Semiannual Report to the Commission and
Congress, the Office of Inspector General (OIG) considers the following to be the top
management challenges facing the Commission. The progress made to date by the
Commission accompanies each challenge.
Management Challenge: Competitive Sourcing. The Commission has competitively
contracted for information technology services, certain editing and publishing services,
mailroom and general labor services, cleaning and building maintenance services, and
security services. Private sector contract employees comprise 14 percent of the on-site
personnel. In addition, other services are acquired on an as-needed basis, such as virtually
all equipment maintenance services, application systems design and development, and
certain audit and financial services.

Management Challenge: Improved Financial Performance. in compliance with the
Accountability of Tax Dollars Act of 2002, the Commission produced financial
statements, notes and a management discussion and analysis for fiscal years ended 2006
and 2005. The DIG's audit resulted in an unqualified opinion on the statements with no
material weaknesses or reportable conditions. However, we will be making
recommendations to strengthen internal controls related to property, cash, and
procurement.

Management Challenge: Budget and Performance Integration. The Commission's
efforts to link budgeting with strategic planning have allowed Commission managers
more effectively to compare changes in workload with changes in cost. Budget
formulation and execution activities permit the allocation of virtually all costs to one of
the five operations set forth in the Strategic Plan. Specifically, because personnel costs
are 75 percent oftotal costs, the Commission Uses the labor cost reporting system to
collect work years and cost information and attribute it directly to strategic operations
when feasible. In doing so, the Commission is able to determine whether resources are
being allocated efficiently. The performance goals and indicators in the Commission's
Annual Performance Plan also provide measures by which the agency's activities can be
assessed.

Management Challenge: Expanded Electronic Government. During fiscal year 2006
the Commission made progress in strengthening its information technology security
program. The OIG's recent Federal Information Security Management Act audit found
Commission fully implemented 10 of23 recommendations from our prior year's audit.
Of the remaining 13 recommendations, 9 were open and 4 were not evaluated because of
on-going work by the Commission. In addition to the nine open recommendations, the
audit found three weaknesses, which relate to use of wireless technologies, certification
and accreditation of major systems, and the system change control process.

Management Challenge: Strategic Management ofHuman, Capital. The Commission
has undertaken several initiatives in support of an overall human capital strategy. The
Commission developed a Strategic Human Capital Management Plan which is intended
to be an essential component of organization's strategic planning. It serves to: define
human capital goals, summarize the projected changes in the workforce assets, and
identify strategies to achieve the human capital goals and an action plan for implementing
the strategies. Additionally, the Commission developed a vision of future workforce
needs. Using information resulting from these efforts, the Commission has been working
on addressing identified needs.
    UNITED STATES
INTERNATIONAL TRADE
     COMMISSION

   FINANCIAL STATEMENTS

      SEPTEMBER 30, 2006
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                                   Financial Statements

                                September 30, 2006 and 2005


                                      CONTENTS




Independent Auditors' Report                                  1-5

Financial Statements:

      Balance Sheets                                          6

       Statements of Net Cost                                 7

       Statements of Changes in Net Position                  8

       Statements of Budgetary Resources                      9

       Statements of Financing                                10

       Statements of Custodial Activity                       11

      Notes to the Financial Statements                       12-21
                                        07Connor
                                          Drewp,c,
                                            .... Certified Public Accountants




    INDEPENDENT AUDITORS' REPORT


    Office ofInspector General, U.S. International Trade Commission


    We have audited the accompanying balance sheets of the United States International Trade
    Commission (USITC/Comrnission) as of September 30, 2006 and 2005, and the related
    statements of net cost, changes in net position, budgetary resources, financing, and custodial
    activity (hereinafter referred to as the financial statements) for the years then ended. The
    objective of our audits was to express an opinion on the fair presentation of the financial
    statements. In connection with our audits, we also considered the Commission's internal control
    over financial reporting and tested the Commission's compliance with certain provisions of
    applicable laws and regulations that could have a direct and material effect on its financial
    statements.

    SUMMARY

    We found the following:

        •   The financial statements referred to above are fairly presented, in all material
            respects, and in conformity with accounting principles generally accepted in the
            United States of America,

        •   The Commission had effective internal control over financial reporting
            (including safeguarding of assets) and compliance with laws and regulations,

        •   The Commission's financial management systems substantially complied with
            the applicable requirements of the Federal Financial Management Improvement
            Act of 1996(FFMIA),and

        •   No reportable noncompliance matters with laws and regulations.


    The following sections discuss in more detail (1) these conclusions and our conclusions on
    Management's Discussion and Analysis and (2) the scope of our audits.
1515 Hancock Street> P.O. Box 9109' Quincy, MA 02269·9109' 617/471·1120' 617/472·7560 FAX' postmaster@ocd.com
                                 Opinion on Financial Statements

We have audited the accompanying balance sheets ofthe Commission as ofSeptember 30,2006 and
2005, and the related statements ofnet cost, changes in net position, budgetary resources, financing,
and custodial activity for the years then ended.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the ITC as of September 30, 2006 and 2005, and its net costs, changes in net
position, budgetary resources, reconciliation of net costs to budgetary obligations, and custodial
activity for the years then ended, in conformity with accounting principles generally accepted in the
United States of America.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as
a whole. The information in the Management Discussion and Analysis section and the Management
Challenges identified by the Inspector General are not required components of the financial
statements, but are supplementary information required by accounting principles generally accepted
in the United States ofAmerica or OMB Bulletin No. 01-09, Form and Content ofAgency Financial
Statements. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods ofmeasurement and presentation ofthis information. However,
we did not audit this information and, accordingly, we express no opinion on it.

                            Intemal Control Over Financial Reporting

Our consideration of internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be material weaknesses under
standards issued by the American Institute of Certified Public Accountants. Material weaknesses are
conditions in which the design or operation of one or more ofthe internal control components does
not reduce to a relatively low level the risk that misstatements caused by error or fraud, in amounts
that would be material in relation to the financial statements being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions. We noted no matters involving the internal control and its operation that we considered to
be material weaknesses as defined above.

However, we noted other matters involving internal control financial reporting and its operation that
we have reported to the management ofITC in a separate restricted use report.

                              Compliance with Laws and Regulations

The results of our tests of compliance with other laws and regulations, exclusive of the Federal
Financial Management Improvement Act (FFMIA), disclosed no instances ofnoncompliance that are
required to be reported under Government Auditing Standards or OMB Bulletin No. 06-03, Audit
Requirements for Federal Financial Statements. However, the objective of our audit was not to
provide an opinion on overall compliance with laws and regulations. Accordingly, we do not express
such an opinion.




                                                  -2-
                                Opinion   011   FFMIA Compliance

In our opinion, the Commission's financial management systems substantially complied with the
three FFMIA requirements: (I) Federal financial management system requirements, (2) Federal
accounting standards, and (3) the U.S. Govermnent Standard General Ledger (SGL) at the
transaction level, as of September 30, 2006 and 2005.

                                  Management's Responsibility

The Accountability of Tax Dollars Act of 2002 requires each federal agency to report annually to
Congress on its financial status and any other information needed to fairly present its financial
position and results of operations. To meet the reporting requirements, the ITC prepares annual
financial statements.

Management is responsible for the financial statements, including:

   •    Preparing the financial statements in conformity with accounting principles
        generally accepted in the United States of America,

    •   Establishing and maintaining internal controls over financial reporting, and
        preparing the Management Discussion and Analysis (including performance
        measures), and

    •   Implementing, maintaining, and assessing financial management systems to
        provide reasonable assurance of substantial compliance with the requirements of
        FFMIA, and

   •    Complying with applicable laws and regulations.

In fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies. Because of inherent limitations in
internal control, misstatements due to error or fraud may nevertheless occur and not be detected.

                           Auditors' Responsibility and Methodology

Our responsibility is to express an opinion on the fiscal year 2006 and 2005 financial statements of
ITC based on our audits. We conducted our audits in accordance with auditing standards generally
accepted in the United States of America, the standards applicable to financial audits contained in
Government Auditing Standards, and OMB Bulletin No. 06-03. Those standards and OMB Bulletin
No. 06-03 require that we plan and perform the audits to obtain reasonable assurance about whether
the financial statements are free from material misstatement.




                                                 -3-
An audit includes:

        -Exarnining, on a test basis, evidence supporting the amounts and disclosures in the
        financial statements;

        -Assessing the accounting principles used and significant estimates made by
        management, and

        -Evaluating the overall financial statement presentation.

We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2006 and 2005 audits, we considered the ITC's internal
control over financial reporting by obtaining an understanding of the design effectiveness of the
Commission's internal control over financial reporting, determining whether internal controls had
been placed in operation, assessing control risk, and performing tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin No. 06-03 and Government Auditing Standards. We did not
test all internal controls relevant to operating objectives as broadly defined by the Federal Managers'
Financial Integrity Act of 1982. The objective of our audits was not to provide assurance on internal
control over financial reporting. Consequently, we do not provide an opinion thereon.

As required by OMB Bulletin No. 06-03, with respect to internal control related to performance
measures determined by management to be key and reported in the Management Discussion and
Analysis, we obtained an understanding of the design of significant internal controls relating to the
existence and completeness assertion. Our procedures were not designed to provide assurance on
internal control over performance measures and, accordingly, we do not provide an opinion thereon.

As part of obtaining reasonable assurance about whether the Commission's fiscal year 2006 and
2005 financial statements are free ofmaterial misstatement, we performed tests ofthe Commission's
compliance with certain provisions of laws and regulations, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts, and certain provisions
of other laws and regulations specified in OMB Bulletin No. 06-03, including certain provisions
referred to in FFMIA. We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws and regulations applicable to the
Commission. Providing an opinion on compliance with laws and regulations was not an objective of
our audits, and, accordingly, we do not express such an opinion.

Under OMB Bulletin No. 06-03 and FFMIA, we are required to report whether the Commission's
financial management systems substantially comply with (I) Federal financial management systems
requirements, (2) applicable Federal accounting standards, and (3) the United States Government
Standard General Ledger at the transaction level. To meet this requirement, we performed tests of
compliance with FFMIA Section 803(a) requirements.


                                                 -4-
                                        Distribution

  This report is intended solely for the information and use of USI'I'C's management, the USITC's
  Office of the Inspector General, OMB, and the U,S, Congress, and is not intended to be and should
  not be used by anyone other than these specified parties, However, this report is a matter of public
  record and its distribution is not limited,




?v~i
l~-; _ /7          'V'   V~,
                         /1  I"o C. .
  o   onnor & Drew, P.C.

  Certified Public Accountants

  October 31, 2006




                                                 -5-
         UNITED STATES
INTERNATIONAL TRADE COMMISSION

             Balance Sheets


       September 30, 2006 and 2005
               U.S. INTERNATIONAL TRADE COMMISSION

                                             Balance Sheets

                                             September 30,
                                               (in dollars)


Assets:
   Intragovemmental
       Fund Balance with Treasury (Note 3)                        $    9,068,519   $ 10,866,911
       Accounts Receivable (Note 4)                                                     347,720
  Total Intragovernmental                                              9,068,519     11,214,631
   Accounts Receivable, Net (Note 5)                                     451,984        501,635
   Prepaid Expenses (Note 6)                                                            208,000
   Advances to Others                                                      1,341
  Equipment (Note 7)                                                   4,330,846       3,320,719

Total Assets                                                      $   13.852.690   $ 15.244,985

Liabilities:
   Intragovemmental
      Employer Contributions and Payroll Taxes Payable (Note 8)   $      118,861   $     110,496
      Other (Note 8)                                                     525,747         742,786
   Total Intragovernmental                                               644,608         853,282
   Accounts Payable (Note 8)                                           1,911,380       1,884,026
   Accrued Funded Payroll (Note 8)                                     1,112,113       1,080,842
   Withholdings Payable (Note 8)                                         674,225         632,593
   Unfunded Leave (Note 8)                                             3,202,954       2,948,491
   Total Liabilities                                                   7,545,280       7,399,234

Net Position:
  Unexpended Appropriations (Note 3)                                   5,179,518       7,265,523
  Cumulative Results of Operations                                     1,127,892         580,228
  Total Net Position                                                   6,307,410       7,845,751

Total Liabilities and Net Position                                $   13,852,690   $ 15244,985




The accompanying notes are an integral part ofthese statements,
                                                  - 6-
       u.s. INTERNATIONAL TRADE COMMISSION
                                Statements of Net Cost

                         For the Years Ended September 30,
                                     (in dollars)



Program Costs:

Total Gross Costs                                         $   63,234,408    $ 61,248,550

Cost Not Assigned to Programs (Note 10)                           254,464          (11,516)

Net Cost of Operations                                    $ 63.488,872      $   61 237,034




The accompanying notes are an integral part ofthese statements.
                                            -7-
           u.s. INTERNATIONAL TRADE COMMISSION
                           Statements of Changes in Net Position

                            For the Years Ended September 30,
                                       (in dollars)

                                                                  2006               2005
Cumulative Results of Operations
     Beginning Balance                                     $         580,228     $     (466,557)

Budgetary Finance Sources:
     Appropriations - Used                                        64,036,536         62,279,819

Other Financing Sources (Non-Exchange):
      Other                                                                                 4,000

  Total Financing Sources                                         64,036,536         62,283,819

Net Cost of Operations                                            (63,488,872)       (61,237,034)

Net Change                                                           547,664           1,046,785

Cumulative Results of Operations                                   1,127,892            580,228

Unexpended Appropriations
     Beginning Balance                                             7,265,523          8,669,865

Budgetary Financing Resources:
     Appropriations - Received                                     62,752,000         61,700,000
     Appropriations - Used                                        (64,036,536)       (62,279,819)
     Other Adjustments                                               (801,469)          (824,523)

   Total Budgetary Financing Sources                               (2,086,005)        (1,404,342)

Total Unexpended Appropriations                                    5,179,518          7,265,523

    Net Position                                           $       6,307.410     $     7,845.751




The accompanying notes are an integral part ofthese statements.


                                                - 8-
                      u.s. INTERNATIONAL TRADE COMMISSION
                                        Statements of Budgetary Resources

                                        For the Years Ended September 30,
                                                    (in dollars)

                                                                            2006               2005

Budgetary Resources:
  Unobligated Balance, Bronght Forward, October 1                     $      2,194,715     $      777,708
  Recoveries of Prior Ycar Unpaid Obligations (Note 11)                        297,539            636,623
  Budget Antbority:
      Appropriation (Note l)                                                62,752,000         61,700,000
       Spending Authority From Offsetting Collections Earned:
           Collected (Note 11)                                                  10.658             14,268
  Subtotal                                                                  62,762,658         61,714,268

  Cancellations of Expired and No Year Accounts                                                      (408)
  Permanently Not Available Pursuant to Public Law                            (801,469)          (824,115)

  Total Budgetary Resources                                           $     64.453.443     $   62304076

Status of Budgetary Resources:
  Obligations Incurred - Direct                                       $     63,995,272     s   60,109,360
  Unobligated Balance - Available                                              458,171          2,194,716
  Unobligated Balance - Not Available

  Total Status of Budgetary Resources                                 s     64.453.443     s   62304076



Change in Obligated Balance:
   Obligated Balance, Net
      Unpaid Obligations, Brought Forward, October 1                   $      8,429,410    s    10,218,945
   Obligations incurred, net                                                 63,995,272         60,109,360
   Gross Outlays                                                            (63,591,543)       (61,262,272)
   Recoveries of prior year unpaid obligations, actual                         (297,539)          (636,623)

     Total, unpaid obligated balances, net, end of period              s     ..8535.600    $     8429410

Net Outlays:
       Gross outlays                                                   $    63,591,543     s    6\,262,272
       Offsetting collections                                                  (10,658)             114,268)

      Net Outlays                                                      $     63580,885     $    6\ 248004




The accompanying notes arc an integral part ofthese statements.



                                                            -9-
                                  U.S. INTERNATIONAL TRADE COMMISSION
                                                          Statements of Financing

                                                    For the Years Ended September 30,
                                                                (in dollars)
                                                                                             2006            2005
Resources Used to Finance Activities:

  Budgetary Resources Obligated:
     Obligations Incurred                                                               $ 63,995,272      $ 60,109,360
     Less: Spending Authority From Offsetting Collections!Adjustments (Note 11)                308,197         650,891
      Net Obligations                                                                       63,687,075      59,458,469

   Other Resources:
      Other                                                                                         -            4,000

       Total Resources Used to Finance Activities                                           63,687,075      59,462,469

Resources Used to Finance Items Not Part of the Net Cost of Operations:

     Change in Budgetary Resources Obligated for Goods, Services, and Benefits
     Ordered but Not Yet Provided                                                             (349,461)     (2,821,351 )
     Resources That Finance the Acquisition of Assets                                        1,731,961       1,362,575
     Resources That Finance the Prepaid Expenses                                              (208,000)        208,000
      Total Resources Used to Finance Items Not Part ofthe Net Cost of Operations            1,174,500      (I 250,776)

       Total Resources Used to Finance the Net Cost of Operations                           62,512,575      60,713,245

Components of Net Cost of Operations That Will Not Require or
 Generate Resources in the Current Period:

  Components Requiring or Generating Resources in Future Periods:
    Increase (Decrease) in Annual Leave Liability (Note 10)                                    254,464         (11,516)

  Components Not Requiring or Generating Resources:
    Depreciation and Amortization                                                              706,891         535,305
    Revaluation of Assets or Liabilities                                                        14,942

      Total Components of Net Cost of Operations That Will Not Require or
      Generate Resources in the Current Period                                                 976,297         523,789

      Net Cost of Operations                                                            $   63488872      S 61 237034




The accompanying notes are an integral part ofthese statements.
       U.S. INTERNATIONAL TRADE COMMISSION

                          Statements of Custodial Activity

                         For the Years Ended September 30,
                                     (in dollars)


                                                                      2006           2005
Revenue Activity:
Cash Collections - Penalties                                      $    49,000    $    250,000
 Accrual Adjustments                                                  (49,000)       (250,000)
Total Custodial Reveuue (Note 13)

Disposition of Collections:
Transferred to Treasury                                               (49,000)       (250,000)
 Increase in Amounts Yet to be Transferred                             49,000         250,000

Net Custodial Activity                                            $              $




The accompanying notes are an integral part ofthese statements.
                                             - 11 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                            Notes to the Financial Statements

                              September 30, 2006 and 2005


Note 1. Significant Acconnting Policies

   A. Reporting Entity - The United States International Trade Commission (ITC) is an
      independent agency ofthe U.S. Government created by an act of Congress and is headed by
      six commissioners, appointed by the President and confirmed by the U.S. Senate for nine-
      year terms. The President designates the chairman and vice chairman, each ofwhom serve
      two-year terms.

      The ITC conducts investigations and reports findings relating to imports and the effect of
      imports on industry, and unfair import practices. The ITC advises the President on the
      probable economic effect ofproposed trade agreements with foreign countries. The ITC also
      conducts analytical studies and provides reports on issues relating to international trade and
      economic policy on behalf of both the Congress and President.

   B. Basis ofAccounting and Presentation - ITC's financial statements conform to U.S. Generally
      Accepted Accounting Principles (GAAP) as promulgated by the Federal Accounting
      Standards Advisory Board (FASAB). The American Institute of Certified Public
      Accountants (AICPA) recognizes FASAB Standards as GAAP for federal reporting entities.
      These principles differ from budgetary reporting principles. The differences relate primarily
      to the capitalization and depreciation ofproperty and equipment, as well as, the recognition
      of other long-term assets and liabilities. The statements were prepared in conformity with
      OMB Bulletin 01-09, Form and Content ofAgency Financial Statements, as updated by
      OMB A-136 Financial Reporting Requirements, July 24,2006.

      The financials have been prepared from the books and records of the ITC and include all
      accounts of all funds under the control ofthe ITC. Accounting principles generally accepted
      in the United States of America encompass both accrual and budgetary transactions. Under
      the accrual method, revenues are recognized when earned and expenses are recognized when
      a liability is incurred, without regard to receipt or payment of cash. Budgetary accounting
      facilitates compliance with legal constraints and controls over the use of federal funds. The
      accompanying financial statements are' prepared on the accrual basis of accounting. The
      lTC's fiscal year is October 1 through September 30. Fiscal year 2006 and 2005 financial
      statements are presented to allow comparison.




                                              - 12 -
                     UNITED STATES
            INTERNATIONAL TRADE COMMISSION
                    Notes to the Financial Statements - Continued

                               September 30, 2006 and 2005


Note 1. Significant Accounting Policies - Continued

      Assets - Intragovernmental assets are those assets that arise from transactions with other
      federal entities. Funds with the U.S. Treasury composed the majority of intragovemmental
      assets on ITC' s balance sheet.

      Financing Sources - The ITC has received a no-year appropriation for operations since fiscal
      year 1993. Appropriations are recognized as revenue and expensed when related operating
      expenses are incurred. Differences between appropriations received and expensed are
      included as unexpended appropriations. Congress appropriated to the ITC $62,752,000 and
      $61,700,000 for salaries and expenses in fiscal years 2006 and 2005, respectively. Congress
      also rescinded funds in the amount of$801,469 and $824,115 for fiscal years 2006 and 2005,
      respectively.

   C. Fund Balances with the u.s. Treasury - Cash receipts and disbursements are processed by
      the Treasury. Fund balance with the Treasury represents appropriated entity funds in the
      custody ofthe U.S. Treasury and is available to pay eurrent liabilities and finance authorized
      purchase commitments. The TTC's obligated and unobligated fund balances are carried
      forward until goods or services are received and payments are made, or until sueh time as
      funds are deobligated.

   D. General Property, Plant, and Equipment - ITC capitalizes acquisitions with costs exceeding
      $50,000 and useful lives oftwo or more years. Property and equipment eonsist ofequipment
      and software. Depreciation expense is calculated using the straight-line method over its
      estimated economic useful life as follows: software, 7 years; and equipment ranges from 5 to
      7 years.

      Internal use software development and acquisition costs of $100,000 or more are capitalized
      as software development in progress until the development stage has been completed and thc
      software successfully tested. Upon completion and testing, software development-in-
      progress costs are reclassified as internal use software costs and amortized using the straight-
      line method over the estimated useful life. Purchased commercial software which does not
      meet the capitalization criteria is expensed.




                                               - 13 -
                      UNITED STATES
             INTERNATIONAL TRADE COMMISSION
                     Notes to the Financial Statements - Continued

                                September 30, 2006 and 2005


Note 1. Significant Acconnting Policies - Continued

   E. Accrued Annual Leave - Annual leave is accrued quarterly, although it is not funded until it is
      used by employees. To the extent current and prior-year appropriations are not available to
      fund annual leave earned but not taken; funding will be obtained from future salaries and
      expenses appropriations. Sick, compensatory, and certain other types of leave are not
      accrued and are expensed when used by the employee.

   F. Net Position - Net position is the residual difference between assets and liabilities and is
      composed of unexpended appropriations and cumulative results operations. Unexpended
      appropriations represent the amount of unobligated and unexpended budget authority.
      Unobligated balances are the amount of appropriations or other authority remaining after
      deducting the cumulative obligations from the amount available for obligation. Cumulative
      results of operations are the net result ofITC's operations since inception.

   G. Intergovernmental Activities - The ITC records and reports only those Government-wide
      financial matters for which it is responsible and identifies only those financial matters that
      the ITC has been granted budget authority and resources to manage.

   H. Use of Estimates - The preparation of the accompanying financial statements requires
      management to make estimates and assumptions about certain estimates included in the
      financial statements. Actual results will invariably differ from those estimates.

   1.   Tax Status - ITC, as a federal agency, is not subject to federal, state, or local income taxes
        and accordingly, no provision for income taxes is recorded.

   J. Reclassifications - Certain amounts in the 2005 financial statements have been reclassified to
      conform to the 2006 presentation.




                                                - 14 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                  Notes to the Financial Statements - Continued

                            September 30, 2006 and 2005


Note 2. Non-Entity Assets
                                                                     2006

                                                    Entity        Non-Entity        Total

      Intragovernmental:
              Fund balance with Treasury       $ 8,993,771       $    74,748
              Accounts Receivable
      Total intragovernmental                       8,993,771         74,748   $   9,068,519

      Accounts receivable                                984         451,000        451,984
      Prepaid expenses
      Advances to others                                1,341                          1,341
      Plant, property, and equipment                4,330,846                      4,330,846
      Total                                         4,333,171        451,000       4,784,171

             Total assets                       $ 13.326.9;l2    $ 525.748     $ J3,852,690


                                                                     2005

                                                    Entity      Non-Entity         Total

      Intragovernmental:
              Fund balance with Treasury        $ 10,624,125     $ 242,786
              Accounts Receivable                    347,720
      Total intragovernmental                     10,971,845         242,786 $ 11,214,631

      Accounts receivable                               1,635        500,000         501,635
      Prepaid expenses                                208,000                        208,000
      Plant, property, and equipment                3,320,719                      3,320,719
      Total                                         3,530,354        500,000       4,030,354

             Total assets                       $ 14.502,199     $ 742,786     $ 15.244,985




                                           - 15 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                   Notes to the Financial Statements - Continued

                              September 30, 2006 and 2005


Note 2. Non-Entity Assets - Continued

      Non-entity funds include copier fees collected from the public for Freedom ofInformation
      Act (FOIA), civil penalty fees, and other collections which will be turned over to the U.S.
      Treasury and are not available for use by the ITC. Non-entity assets are assets that the ITC
      holds, but does not have authority to use. A part of the fund balance with Treasury is non-
      entity and the remaining is entity. Entity assets are those assets which the reporting entity
      holds and has the authority to use in its operations.

Note 3. Fund Balances with Treasury

                                                                 2006              2005
      A. Fund Balances:
            Appropriated Funds                              $   8,993,771    $ 10,624,125
            Other Fund Types                                       74,748         242,786
               Total                                        $   9,068.519    $ 10,866,911

      B. Status of Fund Balance with Treasury
             Unobligated Balance
                Available                                   $     458,171    $ 2,194,716
                Unavailable
             Obligated Balance not yet Disbursed                4,721,347        5,070.807
                    Total                                   $   5,179.518    $   126.5523.


      Fund Balances with Treasury is an intragovemmental asset. The entity fund balance
      represents funds appropriated by Congress for use by the ITC. No entity funds are restricted;
      however, in accordance with Section 605 of Title 5 of Public Law 105-277, Congressional
      approval is required under certain reprogramming or transfer actions.




                                              - 16 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                   Notes to the Financial Statements - Continued

                              September 30, 2006 and 2005


Note 4. Accounts Receivable, Intragovernmeutal

      Intragovernmental assets arise from transactions among Federal entities. An overpayment for
      rent on the ITC leased building resulted in an Intragovernmental Accounts Receivable in the
      amount of $347,720 on September 30,2005. This amount was credited through IPAC in
      October 2005.

Note 5. Accounts Receivable, Net

      The balance of funds receivable from ITC employees for the parking program is $984 and
      $1,635 on September 30,2006 and September 30,2005, respectively.

      A civil penalty was imposed by the ITC in the amount of $ 1,000,000 in fiscal year 2003.
      The balance on this penalty is $451,000 and $500,000 at September 30,2006 and September
      30,2005, respectively.

Note 6. Prepaid Expenses

      The ITC prepaid for parking spaces for employees for fiscal year 2006. Employees who
      participate in the parking program reimburse the agency at a subsidized rate. The amount
      prepaid at September 30, 2006 and September 30, 2005 was $0 and $208,000, respectively.

Note 7. General Property, Plant, and Equipment, Net

      Major classes of general property, plant, and equipment include: 1) office furniture, fixtures,
      and equipment, and 2) information systems and data handling equipment. Depreciation is
      recorded annually, at the end ofthe fiscal year using straight-line method, based on estimated
      useful lives of seven years and five years, respectively, with a ten percent residual value.




                                              - 17 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                    Notes to the Financial Statements - Continued

                              September 30, 2006 and 2005


Note 7. General Property, Plant, and Equipment, Net - Continued

                                      Acquisition    Accumulated         Net Book
      Fiscal Year 2006                  Value        Depreciation         Value

      Office Furniture, Fixtures,
       and Equipment                   $ 1,674,594   $     924,831   $      749,763
      Software                          5,144,474        1,563,391        3,581,083

                                       $ 6.819.068   $ 2.488.222     $ 4.330.846

                                      Acquisition    Accumulated         Net Book
      Fiscal Year 2005                  Value        Depreciation         Value

      Office Furniture, Fixtures,
       and Equipment                   $ 1,438,444   $    924,111    $      514,333
      Software                           3,798,083        991,697         2,806,386

                                       $ 5,236,527   $ 1,915.808     $ 3.320.719

Note 8. Liabilities Not Covered by Budgetary Resources




      Intragovernmental
        Other
      Total intragovernmental

      Unfunded leave
      Total liabilities not covered
       by budgetary
      Total liabilities covered by
       budgetary

      Total liabilities
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                    Notes to the Financial Statements - Continued

                              September 30, 2006 and 2005

Note 8. Liabilities Not Covered by Budgetarv Resources - Continued

                                                                   2005

                                                    Entity    Non-Entity          Total

      Intragovernmental
        Other                                $                 $ 742.786
      Total intragovernmental                $                 $ 742,786

      Unfunded leave                         $ 2,948,491       $
      Total liabilities not covered
       by budgetary                               2,948,491        742,786 $ 3,691,277
      Total liabilities covered by
       budgetary                                  3,707,957                    3,707,957

      Total liabilities                      $    M~448        $ 742,786 $ 7,399,234


      Intragovernmental: Other liabilities consist of a civil penalty imposed by the ITC which,
      upon collection, is held in trust for the U:S, Treasury, Other liabilities also include copier
      fees collected from the public for ForA and other collections,

      Unfunded Leave: Accrued Annual Leave is the value of leave accumulated by ITC
      employees which is funded when used, The current portion is dependent upon such use and
      is, therefore, not accurately determinable,

      Liabilities Covered by Budgetary Resources: These current liabilities are accounts payable,
      employer contributions, payroll taxes, accrued funded payroll, withholdings payable, and
      liabilities payable to the public.

Note 9. Contingencies

      ITC has certain claims and lawsuits pending against it. Provision has been made in lTC's
      financial statements for losses considered probable and estimable. These amounts are
      considered by management to be immaterial. Management believes that losses, ifany, from
      other claims and lawsuits would not be material to the fair presentation oflTC's financial
      statements.

                                                 - 19 -
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                   Notes to the Financial Statements - Continued

                             September 30, 2006 and 2005


Note 10. Gross Cost by Budget Fuuctional Classification

      The Statement of Net Cost for ITC uses a Budget Functional Classification (BFC) code.
      BFC codes are used to classify budget resources presented in the Budget ofthe United States
      Government per OMB. The Statement of Net Cost for financial purposes is designed to
      summarize Intragovernmental Costs, Costs with the Public, and Costs Not Assigned to
      Programs. The only cost that is included under the section "Costs Not Assigned to
      Programs" is the increase/(decrease) in Annual Leave Liability in the amount of $254,464
      and ($11,516) in fiscal years 2006 and 2005, respectively (see note 12). The total Net Cost
      was $63,488,872 and $61,237,034 at September 30, 2006 and 2005, respectively.

Note 11. Spending Authority from Offsetting Collections/Adjustments

      Spending authority from offsetting collections consists ofrefunds ofprior year expenditures
      reported to U.S. Treasury as collections. Adjustments include debt obligation ofprior year
      funds.


      Spending authority from offsetting collections         $    10,658      $     14,268

      Recovery of prior year obligations                         297,539           636,623

                                                             $   308,197      s    65J1891

Note 12. Explanation of Differences Between Liabilities Not Covered by Budgetarv
 Resources and Components Requiring or Generating Resources in Future Periods

      This represents the net increase/decrease in accrued arroual leave reflected on the balance
      sheet as a liability not covered by budgetary resources. Costs of this nature are incurred in
      this reporting period and are a component of net cost of operations. Other liabilities not
      covered by budgetary resources are not a part ofnet cost ofoperations or obligations incurred
      and are not reflected on the Statement of Financing.




                                              - 20-
                    UNITED STATES
           INTERNATIONAL TRADE COMMISSION
                   Notes to the Financial Statements - Continued

                             September 30, 2006 and 2005

Note 13. Non-Exchange Revenne - Custodial Activities

      In fiscal years 2006 and 2005, the ITC functioned in a custodial capacity with respect to
      revenue transferred or transferable to recipient government entities or the public. These
      amounts are not reported as revenue to the ITC.

      The ITC collects a civil penalty for the United States pursuant to 19 U.S.C. §1337(f)(2) in
      connection with violations of cease and desist orders. A person who violates a cease and
      desist order can be assessed a civil penalty of up to $100,000 for each day on which a
      violation occurs or up to twice the domestic value ofthe goods imported or sold in violation
      ofthe order. Payments are made to ITC and held temporarily by ITC in a custodial capacity
      until remitted to the U.S. Department of the Treasury.

      A civil penalty was imposed by the ITC for $1,000,000 in fiscal year 2003. A receivable was
      set up in fiscal year 2004, and ITC collected $549,000 to date, $500,000 of which has been
      transferred to Treasury. As of September 30,2006 and 2005, ITC has a long-term receivable
      of$45l,000 and $500,000, respectively.




                                             - 21 -
